HHS/OIG Audit: Review of Medicare Payments for Beneficiaries with Institutional State Status - BlueCross of Northeastern Pennsylvania, Wilkes-Barre, Pennsylvania, (A-05-01-00086)
Department
of Health and Human Services
Review of Medicare Payments for Beneficiaries with Institutional Status, BlueCross
of Northeastern Pennsylvania, Wilkes-Barre, Pennsylvania
(A-05-01-00086)
May 22, 2002
Complete
Text of Report is available in PDF format (112kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to determine if payments to BlueCross (Contract H3953) were appropriate
for beneficiaries reported as institutionalized.  The final report points
out that BlueCross received Medicare overpayments totaling $62,432 for 99 beneficiaries
incorrectly reported as institutionalized during the period January 1, 1998
through December 31, 2000.  Forty-four of the beneficiaries did not meet
the 30-day residency requirement for the month claimed in an institution.
For 37 other beneficiaries, there was no evidence of institutional residency
for the month(s) questioned.  The remaining 18 beneficiaries were residents
of domiciliary facilities not certified for Medicare or Medicaid.